                                  EVALUATION




 OIL AND GAS LEASING
 IN INDIAN COUNTRY:
 AN OPPORTUNITY FOR
 ECONOMIC DEVELOPMENT




Report No.: CR-EV-BIA-0001-2011   September 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR


                                                                              SEP .2r4 2012
Memorandum

To:            Donald E. Laverdure
               Acting Assistant Secretary - Indian Affairs

               Marcilynn Burke
               Acting Assistant Secretary, Land and Minerals Management

From:          Mary L. Kendall
               Deputy Inspector Gener

Subject:       Final Evaluation Report - Oil and Gas Leasing in Indian Country:
               An Opportunity for Economic Development
               Report No. CR-IN-BIA-0001-2011

         This memorandum transmits the results of our final evaluation report on oil and gas
leasing in Indian Country. Our review concluded that Indian oil and gas leasing is not achieving
its full economic potential. Numerous problems contribute to a general industry preference to
conduct business on private, Federal, and state lands before considering Indian lands. Indian
landowner frustration with some of these conditions has led to legal action against BIA. We
found, however, that improving Federal oversight could help stimulate oil and gas development
on Indian lands.

        Specifically, we found that Indian oil and gas development would benefit from a
more dedicated and coordinated management focus. Indian leases have increased to almost
17,500 in the last 5 years, yet BIA does not have formal policies and procedures to ensure
consistency and transparency of its leasing actions. This lack ofF ederal guidance frustrates
Indian mineral owners and the energy industry. In addition, complex regulations, insufficient
funding, and liability concerns hinder tribal efforts to assume greater control over oil and gas
leases. Outdated and unapproved BIA guidance documents increase the possibility for
inconsistent and unproductive energy-related decisions. Further, application of environmental
reviews and mineral appraisals remains inconsistent. BIA also has no long-term planning
process and no follow-up process to ensure implementation of recommendations to correct
internal control review weakness.

        Although some issues with oil and gas leases on Indian lands do not have an easy
solution, many opportunities still exist for the U.S. Department of the Interior (DOl) to
improve conditions for leasing.

       We make nine recommendations to strengthen DOl's management oflndian oil and gas
development. Based on management's response to the draft report (see Appendix 3) we consider
recommendation 2 to be resolved and implemented, with no further action required. We consider



                               Office of Inspector General I Washington, DC
recommendations 3, 4, 7, 8, and 9 to be resolved but not implemented (see Appendix 4), and we
will refer these recommendations to the Assistant Secretary for Policy, Management and Budget
to track their implementation. We consider recommendation 1 to be unresolved (see Appendix
4), however, and request Indian Affairs to follow through with its plan to appoint a senior
official, keeping OIG informed of the steps taken regarding this issue. Finally, we consider
recommendations 5 and 6 to be unresolved (see Appendix 4) and we are asking Indian Affairs to
reconsider the responses to these recommendations.

       Please provide us with a written response within 30 days. The response should provide
information detailing actions DOI has taken or plans to take to address the unresolved
recommendations, officials involved, and target dates for implementation. Please address your
response to:

              Ms. Kimberly Elmore
              Assistant Inspector General for Audits, Inspections, and Evaluations
              U.S. Department of the Interior
              Office of Inspector General
              MS 4428 - MIB
              1849 C Street, NW.
              Washington, DC 20240

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

       We appreciated the cooperation and assistance of Indian Affairs staff. If you have any
questions regarding this report, please call me at 202-208-5745.




                                               2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Oil and Gas Management Emphasis ................................................................... 4
   NEPA Implementation ........................................................................................ 7
   Mineral Appraisals .............................................................................................. 9
   Support for Indian Self-Determination ............................................................. 10
   Promising Technologies and Practices .............................................................. 11
   Other Impediments Identified ........................................................................... 12
   Additional Issues ............................................................................................... 13

Conclusion and Recommendations ....................................................................... 16
   Conclusion......................................................................................................... 16
   Summary of Recommendations ........................................................................ 16

Appendix 1: Scope and Methodology................................................................... 20
   Scope ................................................................................................................. 20
   Methodology ..................................................................................................... 20

Appendix 2: TERA Process .................................................................................. 22

Appendix 3: Indian Affairs Response ................................................................... 25

Appendix 4: Status of Recommendations ............................................................ 39
Results in Brief
The Bureau of Indian Affairs (BIA or Bureau) reviews and approves oil and gas
and other mineral leases on Indian lands, which represent billions of dollars in
overall annual economic benefits, significant to Indian Country. The Bureau does
this without a formal program backed by consistent administrative guidance and
protocols. Our review found opportunities for BIA to improve its oversight of oil
and gas leases on Indian lands.

Insufficient guidance and oversight of oil and gas leases by U.S. Department of
the Interior (DOI) agencies have frustrated tribal officials and members, agency
employees, and the energy industry in Indian Country. In addition, Federal
attempts to support tribal sovereignty through the use of tribal energy resource
agreements under the Energy Policy Act of 2005 have been hampered by complex
regulations, insufficient funding, and tribal concerns about assuming increased
responsibility. Outdated and unofficial BIA guidance documents also increase the
likelihood for inconsistent, ineffective decisions at the local level. These problems
contribute to a general preference by industry to acquire oil and gas leases on non-
Indian lands. As a result, oil and gas leasing in Indian Country is not achieving its
full economic potential, and frustration with leasing inefficiencies has led Indian
landowners to take legal action against BIA.

Although some issues with oil and gas leases on Indian lands do not have an easy
solution, many opportunities still exist for the DOI to improve conditions for
leasing. BIA personnel with oil and gas responsibilities comprise a dedicated
workforce, committed to advancing leases on Indian lands. We did find, however,
that these same employees often do not have the necessary resources to provide
efficient assistance.

We also found a critical need for focused, coordinated program management of
Indian oil and gas development. As Indian oil and gas leases have increased to
17,500 in the last 5 years, BIA continues to approve leases without formal
policies and procedures to ensure consistency and transparency. BIA
inconsistently applies National Environmental Policy Act requirements and has
no long-term planning process.

We make 9 recommendations to strengthen BIA’s management of Indian oil and
gas development and help DOI fulfill the intent of the Energy Policy Act of 2005,
by supporting Indian self-determination through oil and gas lease development.




                                                                                   1
Introduction
Objective
We initiated this evaluation to determine the extent to which the U.S. Department
of the Interior (DOI) supports or impedes oil and gas economic development in
Indian Country. We specifically analyzed —

   •   the ability of the Bureau of Indian Affairs (BIA) and the Office of Indian
       Energy and Economic Development (IEED) to administer and coordinate
       Indian oil and gas leasing, including their ability to respond to workload
       changes;
   •   the effectiveness of services provided by the Bureau of Land Management
       (BLM) for Indian oil and gas leasing, including the preparation of mineral
       valuation determinations prior to sales; and
   •   the economic development potential of Tribal Energy Resource
       Agreements (TERAs) and the reasons why none have been authorized.

Appendix 1 contains the details of the scope and methodology for this report.

Background
According to the U.S. Department of Energy, Indian land represents a very small
percent of the United States’ land base, but contains an estimated 10 percent of
the Nation’s energy resources. In a combined area slightly larger than the state of
Utah, Indian Country has approximately 17,500 active oil and gas leases. Five of
the 12 BIA regions (Eastern Oklahoma, Great Plains, Rocky Mountain, Southern
Plains, and Western) contain 96 percent of these oil and gas leases. Of these
active leases, about 10,700 were issued in the past 5 years. Royalties received
from Indian leases exceeded $430 million for fiscal year (FY) 2011.

Despite the large number of leases, BIA does not have a formal oil and gas
program to provide oversight and assistance. Energy is only one of many
component areas managed by BIA’s realty division under its Trust Services
directorate. Trust Services, in turn, manages five other divisions in addition to
realty. The Bureau also has relatively few employees with education and work
experience specific to oil and gas. Accordingly, employees stationed at regional
or agency offices typically acquire their knowledge through experience and
formal training obtained while on the job.

An agreement titled “A Memorandum of Understanding between BIA, BLM, and
MMS Regarding Working Relationships Affecting Mineral Lease Activities”
outlined the oil and gas responsibilities of DOI bureaus. Signed in 1991 and
commonly known as the Tripartite Agreement, the document also was intended to
foster cooperation among the bureaus and clarified that BLM may perform
mineral valuations prior to Indian lease sales upon request from BIA.


                                                                                      2
Until the early 1980s, BIA sold oil and gas leases on behalf of Indian tribes. With
the enactment of the Indian Mineral Development Act of 1982, however, tribes
generally have taken over the responsibility. Most tribal leases now are sold by
tribal governments, while allotted leases are negotiated between Indian owners
and companies, with BIA involvement. BIA still holds a limited number of lease
sales each year for Indian lands, mostly in Oklahoma. To fulfill its trust
responsibility, BIA approves all Indian leases and, along with IEED, provides
technical assistance to Indian mineral owners upon request.

More recently, another vehicle was created to foster self-determination. The
Energy Policy Act of 2005 allows tribes to assume energy functions from BIA,
both through a formal process and by documenting the specific arrangements in a
TERA.

Finally, BIA’s approvals of tribal leasing and development activities are subject to
the National Environmental Policy Act (NEPA). Under NEPA, Government
agencies must consider environmental impacts prior to undertaking any major
Federal action. Possible impacts must be identified and publicly disclosed, with
mitigation solutions considered.




                                                                                  3
Findings
Indian Country has considerable potential to benefit from oil and gas
development. Oil and gas revenue could strengthen tribal economies, improve the
welfare of individual tribal members, provide significant employment
opportunities, and increase the production from U.S. domestic energy reserves.
We identified impediments, however, that prevent the full development of these
resources.

Due to various factors, some of which are beyond BIA control, the oil and gas
industry generally considers Indian leases to be their lowest priority, preferring to
lease private, state, and federally owned lands first. Impediments to development
include —

   •   no coordinated strategy and organizational structure to manage BIA’s oil
       and gas activities;
   •   inconsistent policies and procedures among regions;
   •   funding shortfalls;
   •   complexities associated with self-determination;
   •   extra layers of governmental review;
   •   fractionated ownership of allotted lands;
   •   dual taxation;
   •   perceived risk of doing business with tribal governments and allottees; and
   •   high well permit fees assessed by BLM.

In addition, tribes and BIA managers stated that BIA is not sufficiently funded or
staffed to manage the oil and gas workload. The scope of the workload is wide
and BIA operates under tight deadlines. Further, many BIA employees do not
have specialized education or work experience in oil and gas and, therefore,
cannot always effectively assist Indian mineral owners.

Incentives for the oil and gas industry to conduct business in Indian Country may
be overlooked. Oil and gas leases in Indian Country provide opportunities for
industry to secure large tracts of land to explore and develop. In addition, tribal
leases give industry a chance to negotiate with a single property owner who
controls many thousands of acres of contiguous land. Oil and gas reserves on
Indian land also remain relatively unexplored.

Oil and Gas Management Emphasis
Despite impediments to oil and gas lease development in Indian Country, the
extent of current annual leasing activities is enormous. About 17,500 oil and gas
leases exist on Indian reservations serviced by 18 BIA agency offices, mostly in
the western United States. Revenues and other economic impacts such as jobs and
related businesses from oil and gas and other mineral leases represent billions of


                                                                                     4
dollars in overall annual economic benefits. This leasing-related income helps
fund Government operations and basic services for tribal members.

With so much at stake both for tribes and industry, oil and gas constitutes a
substantial activity that warrants more attention. In the absence of an established
program or a director to manage its heavy oil and gas workload, BIA currently
cannot provide this focus. BIA has neither short- nor long-term goals, or
performance measures. Consequently, BIA does not take an active role in
overseeing activities that range from exploring potential energy reserves to
identify leasing prospects, constructing well pads, drilling wells, producing oil
and gas resources, and restoring the land after production ceases. BLM provides
assistance, but BLM also has a much broader role in that it manages Federal
leases. Thus, Indian Country competes with Federal lands for BLM’s attention
and resources.

Coordination is especially needed when unexpected increases in oil and gas
development negatively impact a tribe’s infrastructure. North Dakota has been
experiencing a significant oil boom in recent years, which has also impacted the
Fort Berthold Reservation in the western part of the state. Significant oil reserves
were discovered on this reservation in 2005. Within the next few years, tribal
landowners sold approximately 2,000 leases and drilling commenced. Although
the tribe welcomed the financial benefits, the unanticipated drilling activities
burdened existing infrastructure, including reservation roads, law enforcement
capacity, food and water availability, housing, social services, and medical
services. These impacts even now have not been fully addressed.

Fort Berthold was unprepared for its oil boom. During our fieldwork, we heard
that other reservations may soon experience an oil boom and are likewise
unprepared. Fort Peck Agency officials in Montana, for example, said the local
reservation has no strategy to deal with a major leasing increase expected in the
near future.

Notably, the two reservations described above are located in a rich oil producing
region known as the Bakken shale formation underlying North Dakota, Montana,
and the Canadian Province of Saskatchewan. Indian reservations in this and other
regions are prime candidates for increased oil leasing in the coming years.




                                                                                       5
Figure 1. Bakken shale formation along with affected tribal reservations. Image courtesy of
Office of Indian Energy and Economic Development.

We found outdated and inconsistently applied BIA policies and procedures
covering oil and gas exploration. For example, the document titled “Procedural
Handbook for Mineral Estate Fluids,” issued without formal approval or
implementation in 2006 and last updated in March 2007, is still considered a draft
and, therefore, is inconsistently applied. BIA regional and agency offices use the
handbook to varying degrees or not at all. When we notified BIA officials of this
issue, they agreed to finalize the handbook by April 2012. Originally signed in
1991, the Tripartite Agreement delineating the oil and gas responsibilities of BIA,
BLM, and Office of Natural Resources Revenue (ONRR) is also outdated. In
response to Office of Inspector General (OIG) notification, BIA officials stated
that the agreement would be renewed in 2012.

DOI does have a steering committee to address Indian energy and minerals, but
this body serves only in an advisory capacity. Consequently, oil and gas issues
tend to be handled reactively without the benefit of prior planning, and whatever
progress is made is not evaluated. Such an environment can lead to negative
outcomes. For instance, tribes complain that BIA officials at regional and agency
offices lack the expertise to provide effective assistance. Tribes with extensive oil
and gas experience and expertise may even consider BIA to be a hindrance to
resource development. The situation is serious enough that tribes and individual



                                                                                              6
tribal members are threatening legal action against BIA for alleged
mismanagement of oil and gas.

Transfers or assignments of leases from one company to another are an accepted
industry practice. We learned, however, that oil and gas leases have been used
speculatively and that when leases are transferred between companies without
tribal notification the process is derogatively known as “flipping.” Flipping occurs
when a company acquires an Indian lease for investment or speculative purposes
without actually intending to develop the property. Tribal officials expressed
frustration about not being informed beforehand. They indicated that some
transfers resulted in significant profits to the company, in which the tribe did not
share. To date, BIA has not established a policy on this issue.

Overall, BIA has placed little emphasis on oil and gas operations in Indian
Country. Without a new focus on oil and gas BIA cannot set consistent policy,
establish procedures, anticipate changes in workload, troubleshoot problems,
provide daily direction and overall coordination, and measure performance.

 Recommendations

    We recommend that the Assistant Secretary for Indian Affairs:

     1. Designate a senior official to manage Indian oil and gas activities
        conducted by BIA and IEED;

     2. Complete necessary revisions and updates and formally implement the
        “Procedural Handbook for Mineral Estate Fluids”; and

     3. Work with BLM, ONRR, and the Office of the Solicitor to update and
        approve the provisions of the Tripartite Agreement.


NEPA Implementation
While the circumstances for each reservation and lease vary, BIA field offices are
inconsistently applying NEPA to oil and gas leases in Indian Country. NEPA
broadly applies to all BIA approvals of tribal leases. Some BIA field offices and
Indian reservations satisfy NEPA by completing environmental studies for all
areas to be included in a potential lease before that lease is approved. At a later
leasing phase, they further comply with NEPA by conducting more focused site
reviews required for applications for permit to drill (APD) before drilling
operations commence.

Other field offices and tribes perform just the specific site reviews needed for
APDs, citing NEPA’s categorical exclusions to fulfill the environmental review
for actions having no individual or cumulative impact on the human environment.



                                                                                  7
A categorical exclusion enables BIA and tribes to expedite the permit process by
eliminating a more detailed environmental review. Reviews conducted at the APD
phase, however, tend only to cover impacts on the immediate area of the well
without considering the potentially broader impacts to the overall leased area or to
the reservation.




Figure 2. Impacts of drilling extend beyond the well pad. In this case, an oil spill on the
Blackfeet Reservation in Montana led to mitigation downstream. Photo by OIG.

According to regulations issued by the Council on Environmental Quality (40
CFR 1501.2) as well as BIA’s own NEPA handbook, NEPA should be considered
at the earliest stage of a major Federal action. We believe that BIA’s involvement
in oil and gas lease approvals on Indian lands constitutes a major Federal action.
To date, however, there has been no national-level directive regarding the timing
of NEPA reviews for tribal leases.

Federal regulations require BIA to commence the NEPA process at the earliest
possible time. While the level of analysis required for specific projects will vary,
a standard BIA policy to require the necessary NEPA compliance at the earliest
stage of leasing potentially diminishes long-term oil and gas impacts on
highways, water, and basic services in Indian Country, as well as on the land
designated for pipelines and access roads. In addition, tribal governments have
authority to require additional environmental reviews and protection. Tribes
potentially benefit from larger scale pre-lease environmental studies analyzing


                                                                                              8
such cumulative impacts of oil and gas leasing as increased truck traffic,
construction, and water demands, enabling them to develop their resources
without adversely impacting the overall reservation environment.

Although tribes might benefit from these broader reviews, funding them remains
difficult, unlike funding site-specific APDs that, paid by industry applicants, place
no additional financial burden on BIA or the tribe. Industry, however, has no
incentive to fund larger, pre-lease studies, since these studies occur prior to lease
ownership and cost significantly more. In addition, these broader reservation
studies could delay development of Indian resources by requiring environmental
studies during two separate phases. Tribal governments and BIA may need to
explore alternative funding avenues such as cost-sharing with industry, since oil
and gas development is a mutually beneficial endeavor.

More consistent NEPA application would eliminate conflicting requirements on
reservations and allow for greater predictability for industry.

 Recommendation

     4. We recommend that the Assistant Secretary for Indian Affairs review
         and, as necessary, revise NEPA compliance policies to establish
         consistency across Indian Country.


Mineral Appraisals
A mineral appraisal documents the market potential of the various minerals (oil
and gas in this instance) on a tract of land. Specifically, the appraisal identifies the
potential existence of oil and gas deposits, estimates the volume of production,
assesses the likelihood and timeframes that minerals may actually be produced,
and identifies potential competing leases that could prevent the lease from being
developed. The appraisal also helps prevent bid rigging and collusion among
prospective companies. This specialized appraisal area is a critical component of
the leasing process and should be performed by a licensed minerals economist.

We found, however, that appraisals are sometimes not conducted or are
performed by less-than-qualified personnel. Accordingly, before entering into
lease negotiations with oil and gas companies, Indian mineral owners often do not
know the value of their resources. These owners are at a disadvantage when
negotiating such critical matters as the dollar amount of the bonus bid, the royalty
rate, and timeframes for drilling the first well.

Once signed, a lease agreement is a binding contract. This means that land owners
need to bargain for favorable lease terms up front. According to the 1991
Tripartite Agreement, BIA may ask BLM to assess the fair market value of
proposed bonus bids prior to leasing. We were informed by BLM that, once the
existing BIA workload has been completed, BLM will discontinue its Indian


                                                                                      9
Country valuation services. The minerals appraisal function of BLM has been
transferred to DOI’s Office of Minerals Evaluation (OME). OME, however, has
insufficient funding and staff to meet the nationwide demand for appraisals.

Tribes are beginning to demonstrate their frustration. A legal complaint filed in
the U.S. Court of Federal Claims in 2011 alleges that BIA has not fulfilled its
fiduciary duties to obtain fair market value for Indian landowners and allottees at
the Fort Berthold Reservation.

 Recommendation

    5. We recommend that the Assistant Secretary for Indian Affairs direct
        BIA to work with BLM and OME to identify potential high value
        prospects and conduct mineral appraisals for these prospects, as
        appropriate.


Support for Indian Self-Determination
The Indian Tribal Energy Development and Self-Determination Act of 2005,
which was part of the Energy Policy Act of 2005, established Tribal Energy
Resource Agreements (TERA) to promote Indian self-determination by enabling
tribes to develop their own energy resources. Six years after enactment of the law,
however, no tribe has applied for an oil and gas agreement. Tribal officials at
various reservations expressed concerns regarding the increased and
unreimbursed costs that tribes would incur after assuming functions formerly
performed by BIA, increased tribal liability should oil and gas deals fail, and the
complex regulatory process to implement TERAs (see Appendix 2). In addition,
only tribal-owned leases may participate in a TERA, which excludes those
reservations having mostly individual or allotted ownership.

We have no comment on the tribal objections but believe that more can be done to
further tribal self-determination goals. BIA and tribes currently do not use a
collaborative format, such as compact agreements or a memorandum of
agreement detailing the specific tasks the tribe would like to assume. BIA has not
revisited the TERA regulations with the intention of simplifying and streamlining
the process.




                                                                                 10
 Recommendation

    6. We recommend that the Assistant Secretary for Indian Affairs review
       and work with DOI and Congress to revise, if necessary, the TERA
       statutes and regulations to enable Indian tribes to exercise self-
       determination over tribal oil and gas operations.


Promising Technologies and Practices
Technologies and practices beneficial to BIA oil and gas development have been
implemented only sparingly across Indian lands. IEED has developed software
known as the National Indian Oil and Gas Evaluation Management System
(NIOGEMS). This represents a significant improvement over the current Trust
Asset and Accounting Management System database for managing oil and gas
activities, including leasing and production data, by incorporating geospatial
information as well as a digital mapping capability. The Wind River Agency in
Wyoming reported a tenfold improvement in productivity for certain realty
activities after implementing NIOGEMS.

NIOGEMS, however, is used at only 12 reservations across the country, and use
at these sites is inconsistent. For example, the Blackfeet Tribe uses NIOGEMS
extensively, while the BIA agency serving the tribe is unable to access the system
due to system incompatibility. This has resulted in discrepancies in ownership
status between the two entities, as well as delays in lease payments while the
agency reconciles its data with the more accurate tribal NIOGEMS data. With
wider and consistent implementation, NIOGEMS presents an opportunity for
significant improvement for oil and gas management.

IEED also attempted to implement a “one-stop shop” to assist Fort Berthold with
oil and gas lease development after a long period of inadequate assistance during
its oil boom. This approach involved stationing additional personnel on the
reservation, but ultimately did not succeed. Currently, IEED is supplying advisors
on an ad hoc basis to assist the tribe and the agency with specific technical
knowledge. The practice of supplying advisors has proven successful at Fort
Berthold and could be a valuable strategy for other reservations with expected oil
and gas booms on the horizon.

IEED received one-time Congressional funding in the amount of $500,000 to help
provide tribes with this type of support, but funding will soon expire. Estimates
suggest that the Uintah and Ouray Tribes in Utah, among others, will need as
much help as Fort Berthold in the near future, but no money is currently available
for these activities.




                                                                                11
 Recommendations

    We recommend that the Assistant Secretary for Indian Affairs:

    7.    Direct IEED to accelerate the deployment of NIOGEMS to additional
          tribes and BIA agency offices and address incompatibility issues; and

    8.    Explore options that would make specialists available to provide oil
          and gas assistance in Indian Country where requested and needed.


Other Impediments Identified
During our review, BIA and tribal officials cited several additional factors as
impediments to oil and gas development. We are not making any
recommendations regarding these issues, but are including them in the report for
informational purposes.

   •     A severance tax on oil and gas production or value is a common
         mechanism governments use to raise revenues. Unique to Indian
         reservations, however, is the possibility that both state and tribal
         governments may lawfully impose the tax in a process known as “dual
         taxation.” This is considered detrimental for Indian leases because dual
         taxation does not occur on private, state, and federally owned lands. In
         some cases, tribal and state officials may negotiate a tax-sharing
         arrangement so that the overall levy is equivalent to non-Indian lands, but
         this is a hurdle that each tribe must address in an effort to make their lands
         cost competitive.
   •     A longstanding issue involving allotted Indian leases is fractionated
         ownership in which the same property may have multiple owners. This
         creates a problem for oil and gas leases since companies need consent
         from owners holding a combined majority interest in the land to approve a
         lease. In 2009, however, as part of a settlement in the Cobell vs. Salazar
         litigation, the Department announced a $1.9 billion funding initiative
         known as the Cobell Land Consolidation Program to enable tribes to buy
         back individually owned lands over a 10-year period. This should help in
         the long term, although fractionation will continue to impact oil and gas
         development in the immediate future.
   •     Interviews revealed that industry perceives interacting with tribal
         governments to be a risky business endeavor due to periodic turnover of
         elected council members. Their experience suggests that newly elected
         officials may not be “business friendly.”




                                                                                    12
Figure 3. Pumping unit used for producing oil on tribal lands. Photo by OIG.

    •   Although not an issue directly related to the leasing process, industry
        officials have expressed dissatisfaction with BLM because the agency is
        required in its annual appropriations legislation to impose a $6,500 fee to
        process each APD on Federal and Indian lands. This fee is much higher
        than the fee for wells drilled on state and private lands and is considered a
        detriment, particularly for smaller companies.

Additional Issues
During our review, we noted that BIA does not have a process to ensure
implementation of recommendations contained in its internal control assessments.
BIA developed an internal control review process in accordance with Office of
Management and Budget Circular A-123. As an essential part of that process, the
BIA’s Office of Internal Evaluation and Assessment schedules and conducts
internal reviews of various BIA offices on a periodic basis. We examined four
reports of regional and agency offices issued in 2009 and 2010. Each report
disclosed internal control weaknesses pertaining to oil and gas leasing activities
and made recommendations for improvement. For example, one report showed
that an agency office had not updated the ownership status of its oil and gas leases
and that some oil and gas files were missing. Although the reports indicated that
results had been shared with officials at an exit conference, our review found that
the Office of Internal Evaluation and Assessment does not have a process to
conduct a subsequent follow-up to verify implementation of recommendations.


                                                                                   13
BIA requires a corrective action plan detailing how to address recommendations
but it has no requirement for following up on whether the plan was carried out.
We believe that instituting an official process to verify implementation of
recommendations would strengthen the objectives and effectiveness of the
internal control review process. This could take the form of a return visit by the
Office of Internal Evaluation and Assessment or the submission of documentary
evidence to support the completion of corrective actions. Without such a process,
there is no assurance that recommendations are implemented. In response to
initial OIG notification, BIA agreed to implement a procedure by February 2012.

 Recommendation

    9. We recommend that the Assistant Secretary for Indian Affairs establish
        a formal follow-up procedure to ensure that recommendations
        contained in internal control assessments are implemented.


We also noted that inaccurate boundary surveys deter oil and gas leasing on some
reservations in Indian Country. Existing boundary surveys in certain riparian
(riverbank) areas at the Fort Peck Reservation have become outdated as the
Missouri River has shifted its boundaries. Part natural cycle and part the result of
significant recent flooding, these changes have altered approximately 20 miles of
riparian boundary and made land ownership uncertain.

Where needed, the land must be resurveyed to establish legal ownership
boundaries before oil and gas exploration and development can take place.
Although the tribe’s energy company estimated the land could deliver $2 billion
in future economic benefits, BIA lacks funding for the boundary, also known as
cadastral, surveys.

Currently, BIA provides funds to BLM to perform cadastral surveys through
reimbursable service agreements. Although BIA Fort Peck Agency officials stated
that funding requests have been made, these are backlogged with other nationwide
requests competing for limited BIA funds. Further, the Indian Affairs’ budget for
cadastral surveys was significantly reduced for FY 2012, potentially leaving the
riparian boundary survey issue without an immediate solution. A tribal energy
company official suggested, however, that some benefit would be realized if
BIA’s surveying techniques allowed for the use of aerial photography to help
initiate drilling. BLM stated that aerial photography may be a valuable tool,
although additional procedures may be necessary to ensure compliance with
Federal laws and regulations for surveying lands.

Waterways are common on reservations. Although we only reviewed riparian
boundary concerns at Fort Peck, these issues also could impact other locations in
Indian Country.



                                                                                  14
We are not making a recommendation on this matter but are raising it to BIA’s
attention for whatever action deemed appropriate.




                                                                                15
Conclusion and Recommendations
Conclusion
This report highlights a number of issues that, particularly when occurring in
combination, discourage oil and gas companies from conducting business in
Indian Country. This results in the loss of vital economic and other development
opportunities for tribal governments and tribal members. We believe, however,
that with minimal additional funding, BIA can solve or mitigate most of the issues
by committing to a renewed focus on oil and gas, actively promoting the
advantages of Indian leases to industry, and implementing the recommendations
in this report.

Summary of Recommendations
We recommend that the Assistant Secretary for Indian Affairs:

1.   Designate a senior official to manage Indian oil and gas activities conducted
     by BIA and IEED.

     Indian Affairs (IA) Response: IA non-concurred with the recommendation
     but acknowledged the need for “Central Office/Senior level emphasis” on
     the oil and gas program. IA stated it would develop a plan to identify a
     senior official to provide executive level oversight and policy direction over
     the program. In formulating the plan, IA will analyze the current structure of
     the oil and gas program and assess the need for a program office within the
     Central Office that would be responsible for policy development,
     operational procedures, and executive-level oversight.

     OIG Reply: We consider this recommendation unresolved, pending IA's
     decision to appoint a senior official to provide oversight and policy
     direction. We are encouraged that IA acknowledged a need for greater
     emphasis of the oil and gas program and that it will develop a plan to
     provide executive-level oversight and policy direction. Taking on this
     initiative might be sufficient to satisfy the intent of the recommendation.
     Accordingly, we request that IA follow through with its plan to appoint a
     senior official and keep OIG informed of the steps taken regarding this
     issue.

2.   Complete necessary revisions and updates and formally implement the
     “Procedural Handbook for Mineral Estate Fluids.”

     IA Response: IA concurred with the recommendation, stating that it had
     revised the “Procedural Handbook for Mineral Estate Fluids” in July 2012.
     Additional updates and releases of the handbook are anticipated in the
     future.


                                                                                   16
     OIG Reply: We consider this recommendation resolved and implemented.
     No further action is required.

3.   Work with BLM, ONRR, and the Office of the Solicitor to update and
     approve the provisions of the Tripartite Agreement.

     IA Response: IA non-concurred with the recommendation as originally
     worded. The Assistant Secretary for Policy, Management and Budget
     decided that the revised Tripartite Agreement will be issued as a policy
     document and not a memorandum of understanding. Accordingly, the
     document will be issued unilaterally rather than as a three-party agreement.

     OIG Reply: The approach of the Assistant Secretary to unilaterally issue
     the policy document satisfies the intent of our recommendation, which was
     to update oil and gas policies. Accordingly, we modified our
     recommendation to update and approve the provisions of the Tripartite
     Agreement (and not the Agreement itself), and consider this
     recommendation resolved, but not implemented. The recommendation will
     be referred to the Assistant Secretary for Policy, Management and Budget
     for tracking of implementation.

4.   Review and, as necessary, revise NEPA compliance policies to establish
     consistency across Indian Country.

     IA Response: IA concurred with the recommendation, stating that it will
     make a “concerted effort to achieve consistency.” In addition, it will work
     closely with BLM, which has NEPA compliance responsibility for drilling
     permits, to ensure consistency and streamlining where possible.

     OIG Reply: We consider this recommendation resolved, but not
     implemented. The recommendation will be referred to the Assistant
     Secretary for Policy, Management and Budget for tracking of
     implementation.

5.   Direct BIA to work with BLM and OME to identify potential high value
     prospects and conduct mineral appraisals for these prospects, as appropriate.

     IA Response: IA non-concurred with the recommendation as originally
     worded. IA stated that the Department’s Office of Minerals Evaluation
     (OME) has responsibility for conducting mineral appraisals for Indian
     minerals, but that insufficient funding prevents OME from staffing
     permanent employees.

     OIG Reply: We consider this recommendation unresolved. As explained in
     the report, a mineral appraisal is a critical tool for helping Indian owners



                                                                                17
     obtain proper value for their resources. While we acknowledge the funding
     limitations at OME, options should be explored to seek assistance and to
     maximize the results with the current funding level. For example, IA could
     consider assessing cost recovery fees on the oil and gas industry, and could
     work with OME to review the appraisal process and identify strategies to
     control costs. We modified our recommendation to direct BIA to make fair
     market valuations on proposed bonus bids and mineral appraisals a high
     priority and to work with BLM and OME to continue conducting them
     where necessary. We request that IA reconsider its response to this
     recommendation.

6.   Review and work with DOI and Congress to revise, if necessary, the TERA
     statutes and regulations to enable Indian tribes to exercise self-determination
     over tribal oil and gas operations.

     IA Response: IA non-concurred with the recommendation as originally
     worded. IA disagreed that complexity of the TERA regulations impedes
     tribal self-determination over oil and gas activities and stated that the
     regulations closely track the statutory framework, which DOI does not have
     the authority to change. In addition, tribes may pursue other options such as
     contract agreements, self-governance agreements, and negotiation of
     business lease terms under the Indian Mineral Development Act.

     OIG Reply: We consider this recommendation unresolved. The issue of
     regulatory complexity was raised by the tribes, not us, and tribes considered
     this an important factor in not pursuing a TERA. Given the fact that no tribe
     has ever applied for an oil and gas TERA, it appears this avenue to self-
     determination is essentially at a dead end. Since IA’s response correctly
     pointed out that DOI does not have the authority to change the statutory
     framework or regulations, we modified our recommendation to review and
     work with DOI and Congress to revise, if necessary, the TERA statutes and
     regulations. Accordingly, we request that IA reconsider its response to this
     recommendation.

7.   Direct IEED to accelerate the deployment of NIOGEMS to additional tribes
     and BIA agency offices and address incompatibility issues.

     IA Response: IA concurred with the recommendation, stating that
     NIOGEMS will be deployed to new locations. Challenges exist that must be
     addressed prior to full deployment to all locations that have oil and gas
     leasing, exploration, and development activities. The compatibility issues
     identified in the draft report are more DOI resource and policy issues than
     actual compatibility issues.

     OIG Reply: We consider this recommendation resolved, but not
     implemented. The recommendation will be referred to the Assistant



                                                                                 18
     Secretary for Policy, Management and Budget for tracking of
     implementation.

8.   Explore options that would make specialists available to provide oil and gas
     assistance in Indian Country where requested and needed.

     IA Response: IA non-concurred with the recommendation as originally
     worded, stating that it was considering various options to provide assistance
     in Indian Country. These options include a rapid response team and
     localized multi-bureau coordination teams. The Indian Energy and Minerals
     Steering Committee has also been asked to assist in this effort. IA
     acknowledged it has a small number of employees with oil and gas
     experience and that limited funding makes it difficult to hire more staff. The
     experience at Fort Berthold, however, has provided a “model” to help other
     locations that need assistance.

     OIG Reply: Although non-concurrence was expressed, we believe the
     alternative approach proposed by IA will achieve the goal of providing the
     needed assistance in Indian Country. We therefore modified our
     recommendation and consider this recommendation resolved, but not
     implemented. The recommendation will be referred to the Assistant
     Secretary for Policy, Management and Budget for tracking of
     implementation.

9.   Establish a formal follow-up procedure to ensure that recommendations
     contained in internal control assessments are implemented.

     IA Response: IA concurred with the recommendation, stating it will
     establish a formal follow-up process and procedure to ensure that internal
     review recommendations are implemented.

     OIG Reply: We consider this recommendation resolved, but not
     implemented. The recommendation will be referred to the Assistant
     Secretary for Policy, Management and Budget for tracking of
     implementation.




                                                                                  19
Appendix 1: Scope and Methodology
Scope
We addressed oil and gas leasing activities conducted on tribal and allotted lands,
focusing on the identification of properties for potential leasing, the sales process,
and award of leases. For analysis purposes, we obtained data starting from
FY 2008. Our review did not include the post-leasing phases of well drilling,
production, well plugging, lease reclamation, and final lease abandonment. We
conducted this evaluation in accordance with the “Quality Standards for
Inspection and Evaluation” issued by the Council of the Inspectors General on
Integrity and Efficiency in January 2011. The assignment was conducted from
February through September 2011. We believe the work performed provides a
reasonable basis for our conclusions and recommendations.

Methodology
To conduct our evaluation, we reviewed laws, regulations, policies, and
procedures related to oil and gas leasing; analyzed leasing data; examined prior
reviews; interviewed knowledgeable oil and gas leasing officials; and observed
conditions at various Indian reservations.

We visited or contacted the following organizations:

   •   BIA headquarters, Washington, DC;
   •   BIA Eastern Oklahoma Regional Office, Muskogee, OK;
   •   Federal Indian Minerals Office, Farmington, NM;
   •   BIA Great Plains Regional Office, Aberdeen, SD;
   •   Office of the Solicitor, Washington, DC;
   •   Office of the Special Trustee, Albuquerque, NM;
   •   Revenue Watch Institute, New York, NY
   •   BIA Rocky Mountain Regional Office, Billings, MT;
   •   BIA Southern Plains Regional Office, Anadarko, OK;
   •   BIA Southwest Regional Office, Albuquerque, NM; and
   •   U.S. Department of Energy, Office of Indian Energy, Washington, DC.

In Denver and Lakewood, CO, we visited or contacted the following:

   •   Council of Energy Resource Tribes;
   •   KPMG LLP;
   •   Office of Indian Energy and Economic Development;
   •   Office of Minerals Evaluation;
   •   State and Tribal Royalty Audit Committee; and
   •   Western Energy Alliance (an oil & gas industry association).


                                                                                    20
We also visited or contacted the following Indian tribes and their BIA agency
offices:

   •   Blackfeet Reservation, MT;
   •   Fort Berthold Indian Reservation, ND;
   •   Fort Peck Indian Reservation, MT;
   •   Southern Ute Indian Reservation, CO; and
   •   Jicarilla Tribe, NM.

We also attended an Indian Minerals Steering Committee meeting held in
Lakewood, CO.




                                                                                21
Appendix 2: TERA Process
The TERA Process map follows on page 23.




                                           22
TERA Application and Review Process

              TERA
                                                TERA Application Submission and Review
   Pre-Application Consultation



                                     Tribe submits
                                         TERA
                                      Application

      The Office of Indian
     Energy and Economic
      Development (IEED)
    receives written request
       for Pre-application
      consultation meeting                                                 Application is
                                                                          complete – 270
                                                                          day clock begins




                                                                      IEED notifies DTO that
                                                                      application is complete,
                                  IEED determines if                    requests application
                                  TERA application is                  consultation meeting.
                                  complete - §224.53



                                                                     IEED and tribal governing
                                                                        body hold application
                                                                      consultation meeting (as
                                                                         soon as practicable)
                                   Application is not
                                       complete
      IEED notifies BIA,
     BLM, & MMS region
          and seeks                 IEED notifies the
        participation in            Designated Tribal
           meeitng                 Official (DTO) that
                                   TERA application is
                                   not completed, and
                                   specifies additional
                                  information required
          IEED meets                                                 IEED provides DTO with
           with Tribal                                             written report on application
           officials to                                                consultation meeting
         discuss TERA
         process and
            options
                                     Tribe provides
                                       additional
                                    information and
                                    resubmits TERA

                                                          Tribe submits final              Tribe submits final
                                                          proposed TERA to                 proposed TERA to
                                                          IEED (significant               IEED (no significant
                                                              changes)                          changes)




                                                          IEED reviews final
                                                            proposed TERA

                                                                                                           23
TERA Application and Review Process

                                               DOI (IEED) TERA Review



                              Tribe’s final
                            proposed TERA
                           enters DOI review
                                process




                                                                IEED
                                                              conducts
                                                             NEPA review
                                                               of final
                                                              proposed
                                                                TERA



        DOI publishes FR notice of the
                                                       DOI publishes FR Notice
       final proposed TERA submission
                                                       of Availability (NOA) of
         and requests public comment
                                                         TERA NEPA review




           TERA Public Comment                            TERA NEPA Public
                  Period                                   Comment Period
                                                             (if required)




             IEED reviews public
           comments on TERA and                        IEED finalizes TERA NEPA
              provides copies of                                 review
              comments to DTO




                                                          IEED conducts final
                                                           review of the final
                                                            proposed TERA




                                                        The Secretary decides     Approval or
                                                        whether to approve or     Disapproval
                                                             disapprove             Actions




                                                                                  24
Appendix 3: Indian Affairs Response
Indian Affairs’ response follows on page 26.




                                               25
                    United States Department of the Interior
                                  OFFICE OF THE SECRETARY
                                     Washington, DC 20240

                                       JUL 1 8 2012


Memorandum

To:            Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections and Evaluations

From:          Donald "Del" Laverdure                     J 1 ~ jl /         ~______---
               Acting Assistant Secretary - Indian Affai~v     -p{ ~ "         '--
Subject:       Evaluation of Oil and Gas Leasing in Indian Country
               Report No. CR-IN-BIA-0001-2011

Indian Affairs appreciates the opportunity to comment on the Office of Inspector General
Evaluation of Oil and Gas Leasing in Indian Country, an Opportunity for Economic
Development. Indian Affairs provides the following response to the report' s recommendations.
Additional Bureau of Indian (BIA) and Bureau of Land Management (BLM) comments to the
draft evaluation are included in Attachment 1.

Recommendation #1

Designate a senior official to manage Indian oil and gas activities conducted by BIA
and OIEED;

Response:

Indian Affairs Non-concurs with recommendation number 1.

Although Indian Affairs non-concurs with the recommendation as stated, we do acknowledge the
need for a Central Office/Senior level emphasis on the O&G program. We will develop a plan to
identify a senior official to provide executive level oversight and policy direction over the O&G
program. In formulating the plan, Indian Affairs will analyze the current structure of the O&G
program and assess the need for a Central Office program office responsible for policy
development, operational procedures and executive level oversight.

Responsible Party: Assistant Secretary, Indian Affairs
Target Date:

Recommendation #2

Complete necessary revisions and updates and formally implement the
"Procedural Handbook for Mineral Estate Fluids";
                                                                                              26
Response:

Indian Affairs concurs with recommendation number 2.

We have revised the 2007 draft Procedural Handbook for Mineral Estate Fluids and have
received comments and input from the field. Final review and inclusion of relevant comments
will be completed during the week of July 16, 2012. The final handbook will be finalized by
July 20, 2012. This Handbook will be a living document and we anticipate additional updates to
and releases of the Handbook in the future.

Responsible Party: Director, BIA
Target Date: July 20, 2012

Recommendation #3

Work with BLM, ONRR, and the Office of the Solicitor to update and approve the Tripartite
Agreement;

Response:

Indian Affairs Non-concurs with recommendation number 3.

ONRR, part of ASPMB has assumed ownership in large measure for managing the document.
To get the latest version out for edits in Sept 2011 , ONRR had the Assistant Secretary for Policy,
Management and Budget (PMB), Rhea Suh, sign the transmittal memorandum to all participating
Bureaus within DOL The Assistant Secretary, PMB, has determined that the document will go
out as a policy document and not an MOU. Therefore, she has the authority to issue it
unilaterally.

Responsible Party: ONRR
Target Date:

Recommendation #4

Review and, as necessary, revise NEPA compliance policies to establish consistency across
Indian Country;

Response:

Indian Affairs concurs with recommendation number 4.

We acknowledge there is no specific directive addressing "Tribal leasing" for oil and gas but the
same standards are utilized for all leasing activities on Indian land including O&G, residential,
agricultural and business leasing. We will make a concerted effort with input from our O&G
program and the Office of Environmental Services to achieve consistency.


                                                                                                27
Additionally, we will work closely with the Bureau of Land Management (BLM), who has the
NEPA compliance responsibility for APD's. NEPA compliance for APD's is accomplished in
various ways, including preparation of the NEP A documents by BLM or BIA, or by a third-party
contractor provided by the applicant in order to expedite the permit review process. We will
work with BLM on the various processes to ensure consistency and streamlining where possible.
Responsible Party: Deputy Assistant Secretary for Management, Indian Affairs, Director, BIA
Target Date: January 30, 2013

Recommendation #5

Direct BIA to make mineral appraisals a high priority and to conduct them where necessary;

Response:
Indian Affairs non-concurs with recommendation number 5.

Responsibility for conducting mineral appraisals on Indian Minerals falls within the Office of
Mineral Evaluation within the Department. We contacted OME and were advised that there
major issue is the lack of funding which prevents them from staffing permanent employees.

Recommendation #6

Review and revise, if necessary, the TERA regulations to enable Indian tribes to exercise self-
determination over tribal oil and gas operations;

Response:

Indian Affairs non-concurs with recommendation number 6.

The report inaccurately concludes that the complexity of the Department's TERA regulations
impede tribal self-determination over oil and gas activities in Indian Country. This is simply not
the case. The Department's TERA regulation and the processes to evaluate and approve Tribal
Energy Resource Agreements closely track the framework established in the statute that
authorizes the agreements. The Department does not have authority to change the complex
statutory framework. The report accurately notes the factors that tribes are weighing and that are
likely contributing to their reluctance to enter into a TERA. The factors include:

    • Tribal capacity for carrying out a regulatory program which would include realty,
     environmental, administrative, and technical functions the Tribe would be assuming;

    • Costs associated with implementing a Tribal Energy Resource Agreement and the tribal
    staffing resources necessary to undertake these functions; and

    • The statutory release of liability for losses to any party (including Tribes) for any
    negotiated term of, or any loss resulting from, the negotiated terms of a lease, business
    agreement, or right-of-way the Tribe executes under a Tribal Energy Resource Agreement.
    This release is similar to the release in Indian Minerals Development Agreements.
                                                                                              28
Additionally there are other options that further tribal self-determination that are available to
tribes who choose not to pursue a TERA. Tribes may contract the realty and right of way
functions under Public Law 93-638 or self-governance agreements or Tribes may negotiate
the business lease terms under the Indian Minerals Development Act.

We fully support Tribal self-determination, however, we have reviewed the regulations and
have arrived at the conclusion that the present TERA regulations are essentially in line with
25 U.S.C.A. 3501-3504. Without revisions to the statute we do not believe we have the
authority to make any significant revisions to the regulations that would make TERA's any
more attractive to Indian Tribes.

Recommendation #7

Direct IEED to accelerate the deployment ofNIOGEMS to additional tribes and BIA agency
offices and address incompatibility issues;

Response:

Indian Affairs concurs with recommendation number 7.

We are deploying NIOGEMS to new locations; we anticipate the next location for
implementation is Osage. There are challenges that must be addressed prior full
deployment to all locations that have active oil and gas leasing, exploration and
development. The compatibility issues identified in your draft report are more DOl
resource and policy issues than actual compatibility issues.

Responsible Party: Director, OIEED
Target Date: 3/3112013

Recommendation #8

Explore establishing a rapid response team of specialists to provide oil and gas assistance in
Indian Country where requested and needed;

Response:

Indian Affairs Non-concurs with recommendation number 8.

This is an option we are exploring, but there are other options which may achieve the same
goal, such as the development of localized coordination teams (BIA, BLM, ONRR, OST).
Additionally we are seeking more involvement from IEMSC in the development ofDOI
policies/procedures to assist in the operation and training of potential rapid-response teams
and/or localized coordination teams.

We are not presently structured to have a specific group of employees devoted entirely to a
rapid-response team however we do believe we have actually done a variation of a rapid-
response team at Fort Berthold and Uintah and Ouray. We temporarily assigned experienced
                                                                                                    29
staff from other locations to assist both locations with their oil and gas leasing needs. We have
a very limited number of experienced employees across the country and it is difficult to hire
qualified oil and gas specialists in the present environment within the confines of federal hiring.

IEMSC is presently expanding what has been referred to as the "Fort Berthold Model" to
Uintah and Ouray in an attempt to address problems we are experiencing with processing
applications for permit to drill and the roles and responsibilities of all stakeholders, BLM,
ONRR, BIA, OST and the U&O Tribe. We are confident this will improve operation in this
location and we will thenhave the potential to expand the "Fort Berthold" model to other
locations as needed. The "Fort Berthold Model" essentially is collaboration between the
Federal Bureaus listed above to clearly define the roles and responsibilities of each which will
provide much greater accountability.

Responsible Party: Director, BIA
Target Date:

Recommendation #9

Establish a formal follow-up procedure to ensure that recommendations contained in internal
control assessments are implemented.

Response:

Indian Affairs concurs with recommendation number 9.

Indian Affairs will establish a formal follow-up process and procedure to ensure that internal
review recommendations are implemented.

Responsible Party: DASM
Target Date: November 15, 2012




                                                                                                   30
                                    ATTACHMENT 1

                  Indian Affairs and Bureau of Land Management
                       Additional Comments on Draft Report

INDIAN AFFAIRS

Indian Affairs provides the following comments pertaining to the Office of Inspector General
(OIG) draft report facts, figures and statistics.

   •   On page two, the report states that Indian Land totals approximately 5 percent of the
       United States Land Base. Actually there are approximately 55.4 million acres of Indian
       land in the United States and approximately 2.3 billion acres in the entire United States
       which is closer to 2.5 percent of the U.S. land base.

   •   The report also states there are 20,600 active oil and gas leases in Indian Country,
       however, our system of record (TAAMS), contains 17,518 active oil and gas leases which
       is 3,082 fewer leases than what is reported in the report. (Attachment 2)

   •   On page three of the report, the statement is made, "while allotted leases are negotiated
       directly between Indian owners and companies". This is true for Fort Berthold under the
       Fort Berthold Indian Minerals leasing Act, but the Bureau of Indian Affairs has
       responsibility to negotiate on behalf of Allottees upon their request, otherwise leasing is
       done pursuant to an advertised lease sale, and not just in Oklahoma.

BUREAU OF LAND MANAGEMENT

While the draft report's findings and recommendations are largely directed to the Bureau of
Indian Affairs (BIA), the Bureau of Land Management's (BLM) roles and responsibilities for oil
and gas leasing and development are also an important part of the analysis. We think that the
OIG could strengthen the draft report by adding a general discussion of the BLM's oil and gas
activities in Indian Country. We provide some suggested language below. Also, enclosed is a
set of technical comments to assist you in responding to the draft report.

We suggest including the following clarifying information in the introductory paragraphs of the
response to the draft report.

       The BLM's authority for providing leasing and development support is provided
       in regulations, including 25 CFR part 211-Leasing of Tribal Lands for Mineral
       Development, 43 CFR part 3160-0nshore Oil and Gas Operations and 43 CFR
       part 3180-0nshore Oil and Gas Unit Agreements: Unproven Area.

       At the leasing phase, the BLM supports the BIA' s management of the trust
       mineral estate in the following three ways.

                                                                                               31
        1. Mineral Appraisals - Prior to conducting a sale, the BIA may request an
           opinion from the BLM on whether the minerals within the lands that are being
           considered for lease are appropriate for leasing. The BLM will perform a
           mineral appraisal and advise the BIA if existing information would support a
           determination that there are minerals of sufficient quantity and quality to be
           leased;

       2. Fair Market Value Determinations- The BLM provides the BIA with a fair
          market value determination for evaluating the bonus bids tendered with the
          sale or during the negotiation phase of a lease.

       3. Cadastral Surveys- The BLM is the final and official Federal authority
          regarding legal boundary determinations for the lands that are to be offered for
          lease.

       At the development phase, the BLM has a number of authorities and
       responsibilities for administering oil and gas operations on Indian lands, including
       the following:

       1. Applications for Permit to Drill CAPDs) -The BLM processes and approves
          APDs for Indian oil and gas leases. As part of the approval process, the BLM
          conducts an onsite inspection to identify any resource concerns that the
          operator will address. On Indian lands, the BLM performs this inspection in
          coordination with the BIA and the local tribe.

       2. Inspection and Enforcement- The BLM has an inspection and enforcement
          program to verify that drilling, production, abandonment and reclamation
          activities are performed in compliance with all operations-related lease
          stipulations, conditions of approval, and all applicable laws and regulations.
          Reclamation inspections, in particular, are performed in cooperation with the
          BIA and the local tribe.

       3. Production Verification - The BLM has established minimum standards for
          measuring oil and gas production from Federal and Indian lands. The BLM
          performs production inspections of measurement equipment and conducts
          records audits to verify that operations are meeting minimum standards and
          operators are properly reporting production volumes to the Office of Natural
          Resource Revenue for royalty payment determinations.

Technical Comments

Comment 1 - Mineral Appraisals
Page 2-3, the last paragraph on page 2 that continues on to page 3 reads as follows: "An
agreement entitled 'A Memorandum of Understanding between BIA, BLM, and MMS
Regarding Working Relationships Affecting Mineral Lease Activities' established the oil and gas
responsibilities ofDOI bureaus. Signed in 1991 and commonly known as the Tripartite
                                                                                              32
Agreement, the document also was intended to foster cooperation among the bureaus, including
authorizing BLM to perform mineral valuations prior to Indian lease sales."

BLM Response: The authority for the BLM to perform mineral valuation is not granted under
the Tripartite Agreement. Rather, 25 CFR 211.4 provides the authority under which the BLM
performs mineral valuations on Indian lands. The Tripartite Agreement provides some clarity on
which functions each of the bureaus (BIA, the BLM, and the former MMS) performs and the
requirements for exchange of information.

We recommend the following statement as a replacement to cited sentences in the report:

An agreement titled "A Memorandum of Understanding between BIA, BLM, and
MMS Regarding Working Relationships Affecting Mineral Lease Activities" outlined the oil and
gas responsibilities of the DOl bureaus. Signed in 1991 and commonly known as the Tripartite
Agreement, the document also was intended to foster cooperation among the bureaus and
clarified that the BLM may perform mineral valuations prior to Indian lease sales.

Comment 2 - Mineral Appraisals
Page 10, the third sentence of the first full paragraph reads as follows: "According to the 1991
Tripartite Agreement, BIA may ask BLM to assess the fair market value of proposed bonus bids
prior to leasing. The minerals appraisal function of BLM has since been transferred to DOl's
Office of Minerals Evaluation (OME)."

BLM Response: Although the Department transferred to the Office of Mineral Evaluation the
responsibility for performing mineral valuations, the BLM continues to provide a determination
of the fair market value of oil and gas leases whenever the BIA requests this service. The BLM
plans to discontinue this service, however, when it completes its existing BIA workload.

We recommend the following statement after the sentence cited from the report:

Although this function has been transferred to the OME, the BLM still provides fair market value
determinations of oil and gas leases whenever the BIA requests this service. The BLM plans to
discontinue this service, however, when it completes its existing BIA workload.
Comment 3 - Tripartite Agreement
Page 6, the last two sentences of the first paragraph reads as follows: "Originally signed in
1991, the Tripartite Agreement delineating the oil and gas responsibilities of BIA, BLM, and
Office of Natural Resources Revenue (ONRR) is also outdated. In response to initial OIG
notification, BIA officials stated that the agreement would be renewed by October 2012."

BLM Response: The Department is currently revising the operating procedures addressed in the
Tripartite Agreement. Beginning in March 2009, the affected bureaus undertook a revision of
the procedures outlined in the document and provided draft language to field offices in April
2010. The bureaus distributed a second draft in December 2011, with responses due by February
29, 2012. The bureaus received over 1,500 comments. The bureaus anticipate completing new
guidance by late summer 2012.

                                                                                             33
We recommend that the second sentence be replaced with the following statement:

In response to this draft report, the OIG was informed that the new guidance is targeted for
completion by late summer 2012.

Comment 4 - I&E Operations
Page 5 the second paragraph reads as follows: "With so much at stake both for tribes and
industry, oil and gas constitutes a substantial activity that warrants more attention. In the
absence of an established program or a director to manage its heavy oil and gas workload, BIA
currently cannot provide this focus. BIA has neither short- nor long-term goals, or performance
measures. Consequently, DOl does not manage activities that range from exploring potential
energy reserves to identify leasing prospects, constructing well pads, drilling wells, producing oil
and gas resources, and restoring the land after production ceases."

BLM Response: Although the BLM does not manage oil and gas activities as a lessee or
operator, the agency has operational responsibility to provide oversight of all aspects of
development that occur after the issuance of an oil and gas lease. This oversight responsibility
includes drilling, production, and abandonment operations. Of the five activities listed in the
draft report, the BLM oversees four: "constructing well pads, drilling wells, producing oil and
gas resources, and restoring the land after production ceases." The oil and gas industry performs
the first listed activity: "exploring potential energy reserves to identify leasing prospects."

At a minimum, we recommend that the OIO delete the last sentence because it is inaccurate.

Comment 5 - NEP A
Page 7, the last two sentences of the last paragraph reads as follows: "Some BIA field offices
and Indian reservations satisfy NEP A by completing environmental studies for all areas to be
included in a potential lease before that lease is approved. At a later leasing phase, they further
comply with NEP A by conducting more focused site reviews required for applications for permit
to drill (APD) before drilling operations commence."


BLM Response: The BLM is responsible for compliance with NEP A for APDs. Compliance
with NEP A is accomplished is various ways, including preparation of the NEP A document by
the BIA because of its expertise in or knowledge of the natural resources on Indian lands and
preparation of the NEP A document by a third-party contractor provided by the proponent to
expedite the permit review process

We recommend that the OIO replace the second sentence with the following statement:

At the development phase, the ELM is responsible for complying with NEPA in the site-specific
reviews for APDs. The ELM, the EIA, or a third-party contractor may prepare the
documentation.

Comment 6 - APD Fee

                                                                                                 34
Page 13, the first two sentences on the page reads as follows: "Although not an issue directly
related to the leasing process, industry officials have expressed dissatisfaction with BLM
because the agency imposes a $6,500 fee to process each APD on Federal and Indian lands. This
fee is much higher than the fee for wells drilled on state and private lands and is considered a
detriment, particularly for smaller companies."

BLM Response: Congress mandates the fee for APDs in the Department's annual
appropriations legislation. The fee is designed to offset a reduction in funding to the BLM for
managing the oil and gas program. The BLM does not have discretion to waive this fee.

We recommend that the OIG include a new sentence at the end of the report statement that says
the following:

Congress sets the $6,500 fee for APDs in DOl's annual appropriations legislation. The BLM
does not have discretion to waive this fee.

Comment 7 - Surveys
Page 14, the third and fourth sentences of the last paragraph read as follows: "Further, the
Indian Affairs' budget request eliminated cadastral surveys for FY 2012. This leaves the riparian
boundary survey issue without an immediate solution."

BLM Response: Rather than eliminated, the BIA reimbursable for cadastral surveys for
FY 20 12 was reduced from approximately $11 million to $3 million. It is a significant reduction
and requires the BIA to prioritize further its requests for cadastral survey. This prioritization
could mean that oil and gas development could not take place on Indian lands along the Missouri
River at the Fort Peck Reservation until existing boundary are resurveyed to establish legal land
ownership boundaries.

We recommend that OIG replace the statement with the following statement:

The BIA budget request in FY 2012 reduced funds for cadastral surveys from approximately $11
million to $3 million. This reduction requires the BIA to prioritize further its requests for
cadastral resources across Indian Country, which could potentially leave the riparian survey
issue without an immediate solution.

Comment 8 - Surveys
Page 14, the last sentence of the last paragraph reads as follows: "A tribal energy company
official suggested, however, that some benefit would be realized ifBIA's surveying techniques
allowed for the use of aerial photography to help initiate drilling."

BLM's response: We agree that aerial photography is a very helpful and valuable, time-saving
tool in for determining boundary. However, riparian boundary determinations can be a complex
process involving several steps, such as performing on-the-ground dependent resurvey of the
rectangular surveys, dating of any existing trees, soils analysis, and records research. As the
final official Federal authority for making boundary determinations on Indian lands (See 25 USC

                                                                                                  35
176), the BLM must ensure surveys performed on Indian lands conform to the rules and
regulations under which public lands are surveyed.

We recommend that the OIG include the following clarifying language to acknowledge the
complexities often associated with boundary determinations:

 The BLM agrees that aerial photography may be a valuable, time-saving tool for riparian
boundary surveys but states that it may be necessary to take additional steps and use additional
tools to ensure these determinations are made in compliance with Federal laws and regulations
for surveying public and Indian lands.




                                                                                              36
                                                                               ATTACHMENT 2
         r,>   ''·I                   ~.   '   ,,    '·   .   Resl ions and Agencies with Oil & Gas                -r·I'.
                                                                                              Tribal                               Individual
                                                                      Total                   Status                                 Status
                                                                    Oii &Gas                              Non                                      Non
                                                                                        Producing                                 Producing
                                                                     Leases                            Producing                                Producing
 Great Plains Reg ion & Tribes
 Fort Berthold Agency                                                  2,615      269             68         201        2,346            985        1,361
Three Affiliated Tribes of the
Fort Berthold Reservation, North Dakota
Turtle Mountain Agency                                                    69        0              0           0             69           23           46
Turtle Mountain Band of Chi ppewa
Indians of North Dakota

                                                    Region Totals      2,684      269             68         201        2,415          1,008        1,407

 Southern Plains Region Tribes
Southern Plains Region
Absentee-Shawnee Tribe of Indians of Oklahoma
Alabama-Coushatta Tribes of Texas
Sac & Fox Nation, Oklahoma
Citizen Potawatomi Nation, Oklahoma
Kaw Nation, Oklahoma
Anadarko Agency                                                        1,286       12             4            8       1,274             732          542
Kiowa Indian Tribe of Oklahoma
Comanche Nation, Oklahoma
Apache Tribe of Oklahoma
Wichita and Affiliated Tribes
   (Wicltita, Keechi, Waco & Tawakonie), Oklahoma
Delaware Nation formerly
   (Delaware Tribe of Western OK)
Caddo Nation of Oklahoma
Fort Sill Apache Tribe of Oklahoma
Concho Agency                                                           982        31            31            0            951          715          236
Cheyenne and Arapaho Tribes, Oklahoma
   (formerly the Cheyenne-Arapaho Tribes
   of Oklahoma)
Pawnee Agency                                                           967        30             3           27            937          104          833
Otoe-Missouria Tribe of Indians, Oklahoma
Pawnee Nation of Oklahoma
Ponca Tribe of Indians of Oklahoma
Tonkawa Tribe of Indians of Oklahoma
Shawnee Agency                                                            94        0             0            0             94           94            0
Kickapoo Tribe of Oklahoma

                                                Region Totals          3,329       73            38           35       3,256           1,645        1,611

Rocky Mountain Region Tribes
Blackfeet Agency                                                       2,427      176           162           14       2,251              54        2,197
Blackfeet Tribe of the Blackfeet Indian
Reservation of Montana
Crow Agency                                                              33         7             5            2            26             6           20
Crow Tribe of Montana
Fort Belknap Agency                                                    1,733       88             0           88       1,645              97        1,548
Fort Belknap Indian Community of the Fort
Belknap Reservation of Montana
Fort Peck Agency                                                       1,702     133             16          117       1,569            139         1,430
Assiniboine and Sioux Tribes of the
Fort Peck Indian Reservation, Montana
Wind River Agency                                                        51       40             14           26            11            10           1
Arapahoe Tribe of the Wind River Reservation , Wyoming
Shoshone Tribe of the Wind River Reservation, Wyoming

                                               Region Totals           5,946     444            197         247       5,502             306         5,196
                                                                                                                                                            37
          ~~


                              ;:        '··                    R_~ ions   and Agencies with 011 & Gas
                                                    !"     ~
            I    !'     ~-                     -~                                                                                           .
                                                                                          Tribal                          Individual
                                                                     Total                Status                            Status
                                                                   Oii &Gas                           Non                                 Non
                                                                                      Producing                          Producing
                                                                    Leases                         Producina                           Producing

Midwest Region Tribes
Michigan Agency                                                             3     0            0           0         3             3              0
Saginaw Chippewa Indian Tribe of Mi chigan

                                              Region Totals                 3     0            0           0         3             3              0

Eastern Oklahoma Region Tribes
Cherokee Nation                                                            12     1            0           1        11           11               0
Cherokee Nation, Oklahoma
Chickasaw Agency                                                          158     0            0           0       158          158               0
Chickasaw Nati on, Oklahoma
Okmulgee Agency                                                           131     0            0           0       131          130               1
Thlopthlocco Tribal Town, Oklahoma
Muscogee (Creek) Nation, Oklahoma
Osage Agency                                                          3,593       0            0           0     3,593         2893             700
Osage Nation, Oklahoma (formerly the Osage Tribe)
Talihina Agency                                                            54     0            0           0        54           54               0
Choctaw Nation of Oklahoma
          Wewoka Agency                                                    42     0            0           0        42           42               0
Seminole Nation of Oklahoma

                                              Region Totals           3,990       1            0           1     3,989        3,288             701

Western Regions Tribes
Southern Paiute Field Station                                               2     2            0           2         0            0               0
Paiute Indian Tribe of Utah (Cedar City Band ofPaiutes, Kanosh
Band of Paiutes, Koosharem Band of Paiutes, Indian Peaks Band of
Paiutes, and Shivwits Band of Paiutes)

Uintah & Ouray Agency                                                     903   304         246           58      599           256          343
Ute Indian Tribe of the Uintah & Ouray Reservation, Utah

                                              Region Totals               905   306         246           60      599           256          343

Southwest Regions Tribes
Jicarilla Agency                                                          127   127         125            2         0            0               0
Jicarilla Apache Nation, New Mexico
Southern Pueblo Agency                                                      2     2           0            2         0            0               0
ZiaPueblo
Southern Ute Agency                                                       139    58          55            3       81            78               3
Southern Ute Indian Tribe of the Southern
Ute Reservation, Colorado
Ute Mountain Ute Agency                                                    40    40          39            1         0            0              0
Ute Mountain Tribe of the Ute Mountain Reservation,
Colorado, New Mexico & Utah

                                              Region Totals               308   227         219            8       81            78              3

Navajo Region Tribes                                                      353    37          37            0      316           304             12
Navajo Nation, Arizona, New Mexico & Utah

                    Region Totals                                      353     37             37           0       316          304           12
NATIONAL OIL & GAS TOTALS                                           17,518 1,357            805         552    16,161        6,888        9,273
                                                                           7.75%         59.32%      40.68%    92.25%       42.62%       57.38%
Version 2 06/28/12




                                                                                                                                                  38
Appendix 4:
Status of Recommendations
In response to our draft report (see appendix 3), Indian Affairs concurred with
four recommendations and did not concur with the remaining five. For some
issues, IA suggested alternative corrective actions that potentially achieve the
desired outcome of our recommendations. In those cases, we will monitor
developments to ensure that the necessary corrections actually result. The table
below summarizes the status of the recommendations.

    Recommendations                     Status               Action Required


                                Resolved and              No further action
               2
                                implemented.              required.




                                                          Recommendations will
                                Resolved; not             be referred to the
        3, 4, 7, 8, and 9                                 Assistant Secretary for
                                implemented.
                                                          Policy, Management and
                                                          Budget for tracking
                                                          implementation.



                                                          Appoint a senior-level
               1                Unresolved.               official over the oil and
                                                          gas program and
                                                          provide target date of
                                                          implementation.

                                                          Reconsider response to
            5 and 6             Unresolved.
                                                          recommendations.




                                                                                   39
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
